                                              ..


 Department of Health and Human Servces
                OFFICE OF




    INSPECTOR                    GENERA




CHILD SUPPORT FOR CHILDREN IN IV­
          FOSTER CARE




                            Richard P. Kusserow
                            INSPECfOR GENERA

                                  MAY 199
l '

       .'                                     ..
            li;:!.I   'lm
                                             OFFCE OF INSPECfOR                   GEN
                      The miion of the Offce of Inpetor       General (OIG), as mandate by Public Law 95-452, as
                      amended, is to protect the integrty of the Department of Health and Human Servce' (HS)
                      programs as well as the health and welfare of beneficiaries served by those program.
                                                                                                                    Th. .
                                                                                                            , and
                      statutory miion is carred out through a nationwide network of audits , investigations
                                                                                                                     , the
                      inpections conducted by three OIG operating components: the Offce of Audit Servce inorm
                      Offce of Investigations, and the Offce of Evaluation and Inpections. The OIG also
                      the Secretary of HHS of program, ' and management problems, and recmmends courses to
                      correct them.
                                                  OFFCE OF AUDIT SERVICE
                                                                                                      , either by
                      The OIG' s Offce of Audit Servce (OAS) provides all auditing servce for HHS
                      conducting audits with its own audit resource or by overseeing audit work done by others. .
                      Audits examine the performance of HHS programs and/or its grantee and contractors in
                      carrg out their                                                      independent
                                          respetive responsibilties and are intended to provide
                                                                                        , abuse , and
                      asesments of HHS programs and operations in order to reduce waste
                      mismanagement and to promote ecnomy and effciency throughout the Department.

                                                  OFFCE OF INGATIONS
                      The OIG' s    Offce of Investigations (01) conducts criminal ,   civil , and   admitrative.
                      investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
                      unjust enrchment by providers. The investigative effort of 01 lead to
                                                                                                       crial
                                                                                                    convictions,
                      administrative sanctions, or civ money penalties. The 01 also oversee State Medicaid fraud
                       control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                                      OFFCE OF EVALUATION AN INSPECTONS
                                                                                                       term management and
                       The OIG' s   Offce of Evaluation and Inpections (OEI) conducts short-
                       program evaluations (called' inspections) that focus on isues of concern to
                                                                                                          the Departent,
                       the Congres, and the public. The fidings and recmmendations contained in these inpection
                       report generate rapid , accurate , and up- to-date information on the effciency, wlnerabilty,
                       and effectivenes of departmental programs.



                        OEI's Atlanta Regional Offce staff prepared thi report under the direction of Jese
                        Flowers, Regional Inpector General and Chrstopher Koehler, Deputy Regional
                                                                                                       Inpetor
                        General. Pricipal OEI staff included:

                        Atlanta Region
                                                                                                     Heaquars
                                                                                                     Susan Hardwick
                        Ron Kali , Project Leader
                                                                                                     Penny Thompson
                        Maureen Witce , Lead Analyst
                                                                                                     Wm. Mark Krhat
                        Paula Bowker
                        Jean Dufresne
                +.
                ""




  Department of Health and Human Servces
                               OFFICE OF
    INSPECTOR
                                       GENERA




CHILD SUPPORT FOR CHILDREN IN IV­
          FOSTER CARE




                     "'''c..

                                 Richard P. Kusserow

                                     OEI-091-O530
              EXECUTIVE SUMMARY
PUR
To determine the extent States collected child support from biological parents of
chidren in Title IV-E funded foster care as required by the 1984 Chid Support
Amendment Act.

BACKGROUN
Foster care is temporary removal of a chitd to live with someone other than a parent
durig a time of crisis. Title IV-E Foster Care applies only to children who are or
would be eligible for assistance from the Aid to Families with Dependent Children
(AFC) program if they were stil in the home of their birth parents. In Fiscal Year
(FY) 1986 there were an estimated 110, 749 children in IV-E Foster Care. By FY 1990
the number had swelled to an estimated 173 152 , representing a 56 percent increase in
the 4-year period.


The 1984 Child Support Amendment Act required State Title IV- D Child Support
agencies to collect chid support from biologica parents on behalf of chidren receivig
foster care maintenance payments under Title IV-E Foster Care ' 'where appropriate.

MEODOLOY
In conducting the study, we randomly selected eight States. Within each State , we
selected 40 cases of children who were receivig IV-E Foster Care funds for a total of
320 cases. We also intervewed State and local administrators of foster care and chid
support programs. We conducted our review between February and May 1991.

FIINGS
Few chid support collecons are made on behal of Foster Cae chidren

Collections are being made on behalf of 5. 9 percent of foster care children in our
sample.

Few foster cae caes are referred to Chd Support agencies for possible collecons

lV- D Child Support records exist on just 22 percent of parents of sampled IV-
Foster Care children. No records existed at IV-D Child Support agencies for 78
percent of the parents of children in lV-E   Foster Care.
  Empha on collecg chid support is low
  Policies are vague for when to intiate collections. Coordination between IV-
  Care and IV-D Chd Support agencies is                                       E Foster
                                            lited.
  Efece referr by Foster Cae agencies to Chd Support agencies improve
  in collecg chid support                                                             succ

  Chid support collections are low natiQnally, but a few localities have developed
  effective referral practices resulting in collections on behalf of 48 percent of IV-
  Foster Care children.

 REMMATIONS
 Recmmendation 1. As a condition of receivig Federal matching funds for foster
 care admistration under Title IV- , the Administration for Children and Familes
 (ACF) should require States to develop and implement:

        criteria and procedures to assure that Foster Care agencies refer all
        appropriate IV- E Foster Care cases to IV-
                                                   D Chid Support Enforcement
        agencies for establishing child support orders and collecting chid support; and

          Memorandum of Understanding between IV-E Foster Care agencies and
        IV-D Child Support agencies with respect to determinig "
                                                                 appropriate " cases
        for referral , and gathering and exchanging data.


 Recmmendation 2. In support of such State initiatives
                                                            , ACF should provide guidance
 and plans for coordination between the IV-E     Foster Care and IV-D
Enforcement agencies.                                                   Child Support

Implementation of these recommendations wil improve the well being of foster care
children. They can lead to establishing paternity and locating absent parents
                                                                             , as
as establishing support orders with both cash and medical benefits for the chid.      well
may encourage some parents to become more responsible for their chidren --            Ths
consistent with the Secretary s theme of " personal responsibility.

Initiatives by ACF could substantially increase child support collections from biological
parents of IV- E   Foster Care children. It is not possible to calculate with great
precision how much additional savings would accrue. However
                                                               , we conservatively
estimate up to 74 milion dollars could have been collected
                                                           in FY 1990. Additionally,
the amount will increase each year as the number of children in IV-
rises. Such collections wil offset Federal and State tax dollars spentEfor
                                                                        Foster
                                                                           care Care
                                                                                and
maintenance of IV-E Foster Care children. Federal and State
                                                                 governments could
achieve additional savings by requiring parental medical support of their children
offsetting expenditures on Medicaid.                                               , thus
Recmmendation 3. The ACF should ensure that the Federal share of chid support
dollars collcted on behalf of IV-E Foster Care chidren is correctly distnouted to the
IV-E Foster Cae program rather than the IV-A AFDC program.

COMM
The ACF agreed with our recommendations and has intiated steps to improve
coordination between child support and foster care agencies. The ACF has also
initiated steps to remedy inappropriate distribution of child support dollars. Likewise
the Assistant Secretary for Management and Budget (ASMB) concurred with our
recommendations on both programmatic and financial grounds.

The Assistant Secretary for Plannig and Evaluation (ASPE) agreed that more could
be done to coordinate the provision of IV- D Child Support for IV-
                                                                  E Foster Care.
The ASPE noted that better communication and coordination is needed and should be
encouraged , but que tioned the extent that child support can or should be pursued.
We agree that child support should only be pursued in " appropriate
                                                                    " cases. However
we continue to believe that the majority of children in foster care can benefit from
IV-D Child Support servces , such as paternity establishment and locating absent
parents. We hope our report increases the awareness of a need to integrate these
servces. Many of the issues and problems cited by ASPE will be solved as States gain
more experience in collecting child support on behalf of foster care children. The
 effective practice " sites which we examined demonstrate that this can happen.

We thank ACF, ASMB and ASPE who commented on the report. We present the
full text of comments in appendix E.




                                         iij
                                                                                                                                            . . . . . . . . . . . . . .. .. .. . .. .. .. .. .........
                                                                                                                                                                                                    ..."..".."..
                                                                                    .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ....................................... .. . .. .. .. . . ..




                                                                                            TABLE OF CONTENTS

 EXCU SUMy
 INODUCTON. .
FIINGS. .
                  Few Child Support Collections Are Made
                  On Behalf Of Foster Care Children. . . . . . . . . . . . . . . . . .

              Few Foster Care Cases Are Referred To

              Child Support Agencies For Possib1e Collections


            Emphasis On Collecting Child Support Is Low . . . . . . . . .

         Effective Referrals Improve Success In
         Collecting Child Support. . . . .

RE(X                                                                                A110NS
                                                                                                            .................................... 12

    Discussion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

ENNOTE. .
APPENICE
   A: Title IV-E Foster Care Process. . . . . . . . . . . . . . . . . . . . . . .. A­

   B: Information Collection Methods. . . . . . . . . . . . . . . . . . . . . . .. B­

   C: Description Of "Effective                                                                                                Practice "            Sites           . . . . . . . . . . . . . . . " C­
   D: Projected Child Support Collections
                                                                                                                                                           . . . . . . . . . . . . . . . . . . " D­
   E: Comments on Draft Report
                                                                                                                                        . . . . . . . . . . . . . . . . . . . . . . . . .. E-
                                                  INTRODUCTION

    PUROS
    To determne the extent States collected child support from biological parents of
    children in Title IV-E funded foster care as required by the 1984 Chid Support
   Amendment Act.

   BACKGROUN
   Title IV-E Foster Cae

   Foster care is the temporary removal of a child to live with
   parent (or usual caretaker) during a time of                  someone other than a
   or neglect of the child.                     crisis. The crisis may be caused by abuse

  The Adoption Assistance and Child Welfare Act of
  the Foster Care program for children from the                          admiistration of
                                                                        1980 transferred

  Children (AFDC) program (Title IV-                             Aid    to Families with Dependent
  IV-E Foster Care program. Title IV-
                                       A of the Social Security Act) to the new Title
  or would be eligible for AFDC if theyEwere
                                         Foster
                                              stilCare  applies
                                                   in the homeonly   to chidren
                                                                of their         who are
                                                                         birth parents.
  Servces provided by the IV-E Foster Care agencies are shown below.




                                            IV-E   FOST CAR      ACT
                               o Make Reaonable Efort to Prevent
                                                                                 Remov
                               o IT Unsuccful, Remove Chd from
                                                                                an Unse Home
                               a Place Chd in Appropriate Foster Cae

                              o Determe Eligibilty for IV-

                              o Refer         Parent(s) and Chd to Servce
                              o Plan for the Long Term Welfare of
                                                                               Chd

In Fiscal Year (FY) 1986 , an estimated 110
                                            749 children were in IV-E Foster Care. By
FY 1990 the number had swelled to an estimated 173
                                                                       152 ,   representing a 56 percent
increase in 4 years. .
   Title IV-D Chd Support Enorcement

   The Chid Support Act of 1975 added Title IV-
                                                 D to the Social Security Act. The goals
   of Title IV-D are to ensure that parents support their children to the extent possible
  family (parental) responsibilty increases
                                           , and the cost of welfare to taxayers
  decreases. The Act established child support enforcement
  obtaining support orders and to collect child support moniesagencies  to help
                                                                to reduce       in public
                                                                           Federal
  assistance expenditures. Servces provided by the IV-
  shown below.                                             D Child Support agencies are




                           IV-   CH SUPPORT SERVICE
                                  Lote Parents
                                 Establih Paternty
                                 Establih a Support Order

                                 Receive and Distribute Collecons




Establihig Chd Support      Collecons for Foster Cae Chdren
Section 11 of the 1984 Child Support Amendment Act required States to secure and
enforce child support collections on behalf of children receiving foster care
maintenance payments under IV-
                                  E Foster Care ' 'where   appropriate.

The 1984 amendment required States to follow the same procedures for securing and
enforcing support orders for appropriate children under IV-
                                                          E Foster Care as they do
for AFDC children. In January of 1985 , States were required to amend their Title
IV-E State Plans to insure cooperative efforts with child support
                                                                    agencies.
The IV- D Child Support agencies are responsible for collecting and distributing
payments from absent parents. An "absent parent
                                                  " is a biological parent not residing
in the same home as a child.
    Unle most    chidren in the AFC program
    who traditionally have one absent parent,
    chidren in IV-E Foster Care have two absent
    biological parents and may receive IV-
    Child Support collections from both.                     Foster Care Children
                                                          Have Two Absent Parents
   We found , based on our case record review
   that IV-E Foster Care children need chid
   support servces. These chidren are young.
   More than two- thirds (67 percent) are under
   10 years of age. Although foster care is                      Foster Care   Child
  intended to be " temporary" removal from the
  home, more than three- quarters of the IV-
  Foster Care children have been in foster care
  for more than a year. Ten percent of the
  children have been in foster care for over five
  years.                                                   Biological          Biological
                                                            Father              Mother
  Appendix A provides more detailed
  information about the process of placing a
  child in IV-E Foster Care and how the child
  is linked to IV-D Child Support servces.


   dmini   terig the Chd Support and Foster Cae
                                                    Progr
 At the Federal level , HHS operates both programs within the newly-created
 Administration for Children and Famies (ACF).
                                                   Within ACF, the Title IV-E Foster
 Care program is located in the Administration for Children
 (ACYF), and the Title IV-D Chid Support Enforcement program, Youth and Famiies
                                                                   is in the Offce of
 Child Support Enforcement (OCSE).

 Each State is responsible for establishing and operating the IV­
 IV-D Child Support programs under                                E Foster Care and
                                       provisions of Federal statutes and HHS
regulations.

MEODOLOY
We randomly selected eight States with probabilty proportional to size. The average
number of children in the IV-E Foster Care program in FY 1989 determned
The eight States represent approximately 64 percent of children in IV­                 siz.
in FY 1989. The eight States were: California                          E Foster Care
                                              , New York , Minnesota
Kentucky, Michigan and Pennsylvania. We conducted our review between , Arona
                                                                           February
                                                                              , ilinois
and May 1991.
  With each State, we selected 40 caes of children who were receivig IV-
 Care funds at the time of our review                                       E Foster
                                       , for a total
 for each case at both the foster care agencies   andofIV-
                                                        320 caes. We
                                                                     reviewed records
                                                            D Chd Support agencies.
 Using a standardized discussion gude
 child support program representatives, we  intervewed
                                        to gather       localdata.
                                                  facts and   and State foster
                                                                   We also     care and
                                                                           intervewed
the Federal Regional Offce IV-
                                E Foster        Care and IV-
representing States in the sample.                           D Child Support staff

Appendix B describes information collection 


                                                  methods   in further detail.
                                        FINDINGS
           CH SUPPORT COlLONS AR MAE ON
     FEW
     CAR    CHRE                                                     BEH OF
    Collecons Were Made On Behal Of 5.
    Saple                                      9 Percent Of Foster Cae
                                                                         Chdren In Ou
   A case review tracing the biological parents of the sampled children in IV-
   Care revealed very few pay child support. Only 19 of the 320 children sampled had
                                                                              E Foster
   any child support colJections made on their behalf.

   On 11. 6 Percent Of Sampled Chdren In Foster Cae Were
   Support Order                                         Included In A              Chd
   A child support order must be established to
   IV-E Foster Care children. Yet very few childcolJect child support from parents of
                                                support
  Foster Care children. Only 37 of the 320 sampled      orders
                                                   children    areincluded
                                                            were   established for IV-
                                                                           in an

  established child support order.


  FEW FOST        CARAR      CASES
  AGENQE FOR POSSmLE COLLCTONS            RE            TO   CH SUPPORT
 No Recrds Exted At Chd
 Chdren In IV-E Foster Cae Support Agencies For 78 Percent Of The Parents Of

 Records existed at IV-D Child Support agencies on just 22 percent of parents of
 sampled IV- E  Foster Care children. I The majority of the sampled children in Foster
Care lived with one or both of their parents before they were placed in foster care.
Further, most have permanency plans to return the children to the home of their
parent(s). Yet , few foster care agencies have effective policies or procedures to refer
cases to a IV- D Child Support agency.


Referr Are Crtica To Intiate The Chd
                                               Support Collecon Proc
 When the IV-D Child Support agencies we visited receive a referral
provide all servces to IV-E Foster Care cases. Yet                  , they tyically
the clear majority of sampled children in IV-      , because referrals are not made
opportunity to receive IV-                     E Foster Care are being deprived the
                             D Chid Support servces they are entitled to receive.
     For IV-E   Foster Care children not referred
                                                    , IV-D Chid Support agencies cannot
         &tablih paternty        without legally-established paternty, a 

         ineritance rights or insurance rights. Also possibly vital information
                                                                       chid cannot obtain
                                                                                regarding
         genetically-lined medical problems
                                                wi not be known.
        Lote the absnt parent: without the absent parent(s) being located
        cannot form social relationships with the parent(s).                   , the chid
        parent or a close relative of an absent parent may beInable
                                                                some   cases ancustody
                                                                    to assume   absent of
        the foster care child.

       &tablih a support order and collec chid support payments: when certain
       criteria are met, administering agencies may save portions of chid
       payments collected from the parents for a child. The child support support
                                                                           payments from
       parents may also be used to provide amenities such as clothing or enrollment in a
       class for a child while in foster care. The support order and established
       pattern may continue after a child                                        collection
                                             leaves IV-E Foster Care.



   EMHAIS ON COLLCTG
                                        CH SUPPORT IS LOW
  Policies For When To Intiate
                                    Collecons Are Vague

  Federal policies place no emphasis or focus on collectig child support for Foster Care
  children

  Until an April 1991
                     reorganition of HHS, the IV-
 Support programs were operated by two separate      E Foster Care and IV-D Child
 Development Servces (OHDS) administered the IV-    divisions. The Offce of Human
 Family Support Administration (FSA) administered the E Foster
                                                         IV­ Care program and the
                                                            D Childboth
 No one was directly responsible for insuring coordination between  Support  program.
                                                                        programs.

 Although extensive Federal guidance requires the IV­
 regularly update cases to IV-D Child Support agenciesA AFDC program to refer and
 OHDS and FSA concernig child support                  , the only action issued from
                                          collections
 children was a "Memorandum of Understanding          on  behalf of IV-
                                                                        E Foster Care
                                                " signed dollar
 memorandum only established procedures for reporting     in May  of 1986.ofThe
                                                                amounts      collections
between OHDS and FSA.

Within OHDS and FSA regional offces isolated
increase reported collections on behalf of IV-     initiatives have occurred since 1986 to
uniform national strategy addresses this issue. E Foster Care children. However, no

The separation of the IV- E Foster Care and IV-
is mirrored at State and local levels. In virtually D Child Support at the Federal level
                                                    every
analysis, the two programs were administratively isolated State
                                                            fromoreach
                                                                   county included in our
                                                                       other.
                                                                  , '€




    The only strong Federal focus is on compliance in reporting. Therefore
    collections on behalf of IV-E Foster Care chidren is often little more than
                                                                             , chid
                                                                                 a support
    bookkeeping function.

    Criteria concerning " where appropriate
                                              " are inadequate or non-extent
   No Federal directive defines '
                                  'where appropriate
                                                     " yet the
   conditions or circumstances where child support should
   policy uses the term. This State policy
                                                             belaw uses the
                                                                pursued.    phrase
                                                                          Only one to
                                                                                   State    lit
   are referred. Seven of the eight        defies "appropriate " so broadly that no cases
                                    States have no wrtten criteria as to when chid
   support should or should not be pursued. Without criteria
   little meaning to program staff.                             'where appropriate
                                                                                   " has

   Cordiation Between       Foster Cae And Chd Support Agencies Is
                                                                           Lited
  Mission and roles are not clearly understood or accepted

  Few staff within IV-E Foster Care and IV-
                                               D Child
  understanding of their role in interrelating their     Support
                                                     different    agencies had a clear€
                                                               programs€
  servces can complement each other. The agencies                       , or how their€
  regular meetings.                                      hold no formal cross trainng or€


  The focus and approach of IV-E     Foster Care and IV-D in
  considerably. Foster care staff are oriented to and talk Child Support
                                                             terms of an agencies
                                                                         individualvaried
                                                                                    chid.
  They form interpersonal relationships with the familes they serve. On the other hand€
 most IV- D   Child Support staff view themselves as adversaries of "€
 The child support staff tend to be "                                    absent parents.€
                                        bottom line oriented.
 Some foster care workers regard
                                  gatherig information for a referral to IV-
 Support agencies as "paper pushing,                                            D Chid
                                        or as " not my job.
 opinions that families of IV-E Foster" Care                " These workers expressed
                                              children are " too poor to pay.
 unaware of the range of servces IV-                                          " They are
                                        D Child Support agencies can provide. Further
they are unaware of or underestimate the ability that Child Support
demonstrated for collecting money in economically-similar AFDC agencies have
                                                                 cases.
Some foster care workers philosophically oppose pursuing child support. Some dread€
an unpleasant confontation with the parent(s). Others
child support wil be detriental to the                      may believe that enforcing€
                                           parent!child relationship.
that child support serves to stabilize the family unit and help insureThey   do notintegrty.
                                                                        its future  believe

Infonnalion is not shared or exchanged

If a case is not referred to the IV-D Child Support agency, and IV-
                                                                    E Foster
workers need to establish paternity or locate an absent parent(s) they       Care
                                                                       must do this
themse)ves. Foster care workers are not trained in this work nor are they given €
to the information resources of IV-D Child Support agencies.                    access
.--




         When a referral is made by a IV-E Foster Care agency, inormation necessary for
        pursuig chid support is seldom given. To
        support a IV-D Chd Support agency must obtain begi the process of obtaing chid
                                                             tiely, accurate
        inormation concernng the family. The inormation                       , and complete
        or employment information , is often available in IV-, such as social security numbers
                                                              E Foster Care fies, or is known
        by foster care workers, but it is not shared in the referral. As a result, IV-
        Support staff must gather inormation that a IV-                                D Chid
                                                          E Foster Care agency already has.
        Although foster care workers track a family
        understand the importance of communicatings status
                                                    status, few foster care workers
                                                             changes to a IV-
        agency. For example ,   as part of the servce to a family, a foster care D Chid might
                                                                                 worker Support
       learn that a previously incarcerated father has been released and become employed.
       Without the IV-E Foster Care worker promptly
                                                         inormng the IV-D Child Support
       agency, the IV-D agency must learn this critical information independently. Likewise
       IV-D Child Support workers may obtain information on the family that foster care
       workers need.

       Almost 60 percent of the cases we reviewed had discrepancies between the two
       agencies ' files. Some discrepancies were as uncomplicated as a current address.
       Others had more serious ramifcations. For example
       stated the father was " unknown.                      , one IV-E   Foster Care cae fie
       identifed the father and had an open case onChild Support' agency, however, had
                                          " The IV-D

      Care case file stated the father was "         him. In another case, the IV-E Foster
                                             unkown
      termnated. The IV-D Child Support agency, on  " and all parental rights involuntariy
                                                        the other hand
      father and was on the brink of servng the man with a court order  , had
                                                                           for identifed the
                                                                               child support
      payments.

      Such lack of communication and sharing of information may cause problems with the
      therapeutic relationship a social worker is building with a family. In one case
      parent and foster care worker established suffcient trust to allow a child to return
                                                                                      , the
      home. However, at about the same time
      summons to bring the parent to court. The , a parent
                                                    IV-D Child Support agent served a
      damaged the reunification process.                   s anger at the "government
   Nineteen percent of the total child suppon dollars collected in our sample for Foster Care
   chilen were mistakenly distruted to the
                                              AFDC program
   Of the $22   524 collected in the. year prior to our review on behalf of the sampled IV-
  Foster Care children , $4 260 (19 percent) was not distributed to the IV-
  agency to offset maintenance payments for the children.                  E Foster Care

  Many of the sampled children in IV-E Foster Care were included in active AFDC
  grants before the time of removal from their home to a foster care placement. In
  some instances , AFDC agencies made a referral for IV-
  a chid was stil at home. In such instances                D Chid Support servces whie
                                            , IV-D Child Support agencies had the case
  classifed as an "AFDC case. " In some localities
                                                   , communications were so ineffective
  that the Child Support agency was not notified when   a child was removed from an
  AFDC grant and placed in IV-E Foster Care.

 No one had "reclassified" 15 of the 640 cases (2.3 percent) for parents of
 our sample. These 15 cases were classified as IV-                          chidren in
                                                   A AFDC    cases rather than
 Foster Care cases at the IV- D Child Support agencies. One State had no systemIV-
                                                                                   to
 notif the IV- D Child Support agency when an AFDC child enters IV­
 In other places ,                                                       E Foster Care.
                  inadequate systems allowed cases to slip through improperly   classifed.
 In these situations any child support collections made on behalf of IV-
 chidren were mistakenly distributed to the IV-                          E Foster Care
 were used to offset Federal and State IV-       A  AFC   program.   These  collections
                                            A AFDC assistance payments rather than
 IV-E   Foster Care maintenance payments.



EFCT REFE IMROVE SUCC IN COlLCTG
SUPPORT

Within our national review
                           , a few IV-D Child Support programs dilgently pursue both
parents of aIJ cases received. Yet these programs are limited by
made or the sketchy information provided in the referrals. IV- few referrals being
agencies sometimes pursued cases of parents of children in IV- D Child Support
the knowledge of the IV"E agency.                                 E Foster Care without

While collections are low nationally, we found a few localities exceed the national
average making collections on behalf of IV-
                                            E Foster Care children. These programs
have demonstrated the abilty to

   refer most parents of IV-E Foster Care children to a IV-
                                                                D Child Support agency,
   establish more support orders , and

   collect more child support on behalf of rV-
                                                 E children.€
                     , "





    Although such localities were outside the scope of our sample
    viewed as "effectve practce
                                 " sites -
                                                                     , we visited two that we
     County, Miesota. 2 These counties Lancater
                                           have takenCounty,   Pennsylvana
                                                       the intiative         andprograms
                                                                     to develop   Olmstead for
    effectively referrng cases and
                                   utilg foster care workers to collect and exchange
    necessary inormation to pursue chid support. In these
    received chid support collections on behalf of 48 percentcounties    IV-E Foster Care
                                                                of children.

   Based on a case record review
                                , the following
   averages to the performance average  found atchart
                                                 the "compares national performance
                                                              effective practice " sites.


                                  IV- D Child Support For
                                IV - E  Foer  Care Children
                     Ca88 For Mothers
               70%                                               Ca$88 For Fahers
                                                                                      70%
              80%
                                                        &8%
                                                                                      80%
              50%
                                                                                      50%
              40%      38%                                          42%

              30%                                                            35% 40%
                                                                                      30%
                                1&%
                                        1:%                                           20%
                                                                                      10%
                             Supprt Colle Ion.      Ro",.
                             Order.                             Support CoI18.tlono
                                                    81 IV.O      Orer.
                                Naiona Iwr8Q8        B8t PraclcAlrag.


As the chart shows effective practice
                                      " sites
mothers and fathers able to support their     consider
                                            children.   a higher"percentage of both
                                                      Although
refer just under twce the percentage of cases to the IV-         effective practice " sites
                                                           D agency
our national sample, they issue orders on five times as many         as did
                                                                mothers  andthe sites four
                                                                             almost   in
times as many fathers. The " effective practice
support orders when compared to our national"sample.
                                                 sites also collect on a higher ratio of
   We attributed the signcat     collections at the "effective
  priciples,                                                     practice " sites to the followig


               Considerig Chd Support a      Priority


               Havig Efece Pattern of Communcation Between IV-
               Progr                                          E and IV-

               Being More Awae of Both Biologica
                                                         Parents' Income Source
               Havig One Person or Ofce to
                                                Cordiate IV-E Foster Cae Referr
               Including Medca Support in More Support Orders

             Reportg Collecons to the IV-E Foster Cae Agency


 Appendix C highlights program operations in Lancaster and Olmstead counties.

 A recent study completed by the Region II ACF also
                                                      shows
 is possible. The study examined child support collections fora children
                                                                high level
                                                                         in of collections
                                                                            IV-€
Care in New York City. The study showed many of the same problems we E Foster
encountered concernng the agencies
                                   ' failure to exchange important inormation and
inadequate policies concernng referrals. Over 70 percent of referrals to New York€
City' s Child Support agency had "
                                     incomplete data and/or documents " and almost 20
percent had "inconsistent or conflcting data.

 The ACF study showed , despite the problems
                                             , 42 percent of the cases opened at the
 IV-D Child Support agency had active support orders. Of these
receivig monthly collections. Of the non-                       , 62 percent were
                                          payig cases 80 percent had a tax offset
made in the past year, so at least some money was collected. Many of the cases
without active support orders were improperly referred or contained outdated
information.
                       RECOMMENDATIONS
  Recmmendation #1

  As a condition of receiving Federal matching funds for Foster Care administration
  under Title IV- , ACF should require States to develop and implement:

      criteria and procedures to assure that Foster Care agencies refer all appropriate
      IV-E Foster Care caes to IV-D Child Support Enforcement agencies for
      establishing child support orders and collecting child support; and

      a Memorandum of Understanding between IV-
                                                       E Foster Care agencies and IV-
      Child Support Enforcement agencies with respect to determning "
      cases for referral , and gathering and exchanging data.            appropriate

 Recmmendation #2

 In support of such State initiatives , ACF should provide guidance and plans for
 coordinating the IV- E Foster Care and IV-
                                            D    Child Support Enforcement programs.
 ACF could:

     Develop training and technical assistance modules to assist States in implementing
     new policies and procedures on child support for children in IV-
                                                                      E Foster Care.
     Publish a compendium periodically of the techniques used by successful States in
     increasing their collections.

     Publish periodic report    showing statistics nationally and by State on the IV-
     Foster Care and lV-D Child Support initiative.

  - Direct regional offces of   ACF to monitor States in their region using performance
    standards and monitoring mechanisms.

As discussed below, we believe these first two recommendations will increase: the
number of support orders; the number of collections; the
                                                         average amount collected
per case; and the number of children receiving medical support.

Recmmendation #3

The ACF should ensure that the Federal share of child support dollars collected on
behalf of IV- E
              Foster Care children is correctly distributed to the IV-
program rather than the IV-A AFDC program.                             E Foster care
      DISCUSSION

     We found few foster care caes are referred for chid support servces. When referrals
     are not made, the clear majority of sampled foster care children are being deprived of
     an opportnity to receive servces they are entitled to receive. IV­
    servces can be beneficial to a child. For example                    D Chid Support
    child can obtain inheritance rights or insurance rights. Child
                                                        , when     support
                                                               paternity is agencies
                                                                            established a
    location procedures can assist foster care agencies in dilgently searching for absent
    parents. When an absent parent is located
                                               , a foster
   appropriate social relationships with the parent.      care cases
                                                      In some  chid may be able to fonn
   close relative of an absent parent may be able to assume custody  anof a foster
                                                                        absent     care or€
                                                                                parent
   child. When a support order is
   made, administerig agencies may, established and child support collections are being
                                        when certain conditions are met, use a
  the payments to provide amenities for a child while in foster care.
                                                                            portion of
  may also provide important medical insurance for a child.           The support order
  When parents cooperate with child support agencies and assume fiancial
  responsibilty for their chid while in foster care €

  building parental responsibility.                                                it   can be an
                                                                                                     important
                                                                                                                 step toward
 A Federal effort is needed to insure that child support servces are provided to benefit
 children in IV­          E Foster Care and to increase
 Such action clearly responds to the Secretary      support collections on their behalf.
                                                                           child


 responsibilty toward their children and the community
                                                initiative byregarding
                                                               making parental
 for their chidren s financial support. The recent HHS reorganiztion   integrating
                                                                    parents responsible€
 OHDS (responsible for the Title IV-
 the Title IV-D Child Support program)E Foster Care program) and FSA (responsible for
                                         into the Administration for Children and
Famies provides an opportunity to improve the management of IV-
for children in IV- E Foster Care.                                    DChid Support
Based on Our representative sample
                                     , we believe
IV- D Child Support collections on behalf  of IV- a Federal initiative could increase
tax dollars spent for care and maintenance of IV­E Foster Care children thus offsetting
                                                  E additional
possible to calculate with great precision how much Foster Care  children.
                                                               savings     It is
                                                                       would     not
                                                                              accrue.
The final result wi depend on many
                                                             factors including
    - the number of children in IV-
                                                           E Foster Care
    - the percentage of support orders issued on behalf of IV-
                                                                                                    E Foster Care children
   - the amount of support ordered

   - the amount actually collected
                                                          , and
  - the administrative cost of collecting €
                                                                  child   support.
   However, we believe our proposals would increase the number of support orders and
   the number and amount of collectons. The simplifed ilustration below
                                                                           shows are€
  possible estimated collectons if the percentage of children for whom collections
  made were increased to various levels.€


                             Posible Collecons at Varous Rates
                                          (in millions)


              Percent Of Chldren             Year
             For Whom Collections
                                                       Net Federal
      Estimated
                                         Collections        Share of      Federal
                  Are Made               (FY 1990)
        Collections    Savigs
                                            $15               $4.          $2.
                                            $30               $9.          $4.
                                            $45              $13.          $6.
                                            $60              $18.          $9.
                                            $74              $22.         $11.
          (Appendix D provides details concernng these estimated collections.

 We believe our estimate of possible collections
                                                  is conservative. The estimate supposes
 only 29 percent of all child support money ordered will be collected. In our "
                                                                                 effective
 practice " sites, 80 percent of the money parents are ordered to pay is collected. A
 study of recent IV-E Foster Care referrals for child support enforcement in New York
 City showed over 60 percent of the open cases had current support payments.


 Also , Federal and State governments could achieve additional savigs by
                                                                         requirig
 biological parents of IV-E Foster Care chidren to provide medical support thereby
offsetting Medicaid expenditures. The average Medicaid costs per chid in 1990
$811 per year. 4 We found that in the two " effective practice                        were
children received medical support from a parent                " sites 42 percent  of the
                                                 , covering some of the costs. Ths
practice could be applied in other States and counties resulting
nationally.                                                        in substantial savigs

Additionally, children who are removed from IV-E Foster Care to the custody of
absent parents or their families represent Federal and State savings to the IV-
Care program and a major benefit to a child.                                         E Foster

Further, 19 percent of the total child support dollars collected for our sampled IV-
Foster Care children was erroneously distributed to the IV-
of the IV-E program. A one-time correction of the "
                                                             A AFDC program instead
                                                       misclassification " would transfer
an additional $2.5 milion to the IV-E program. (See appendix D for
this estimated transfer.)€                                                details regarding
-._    ..- .-   -




            AGENCY   COMM
           We thank the Admstration for Chdren
           for Management and Budget (ASMB) and and Familes (ACF),
                                                the Assistant        the for
                                                              Secretary   Assistant
                                                                             PlannngSecretary
                                                                                      and
           Evaluation (ASPE) who commented on the draft report.
                                                               Their
          responses are summarized below. Appendix E shows the full   comments
                                                                    text          and our
                                                                         of the comments
          provided by ACF, ASMB and ASPE.

          ACF Comments

         The Admiistration for Chidren and      Families (ACF) agreed with our
        recommendations to improve coordination between the child support and foster care
        programs. The ACF plans, through its regional offces
        coordination systems in each State. The                   , to examine the status of
                                                   ACF   will include
        its Joint Planning Guidance to be issued in fiscal year        the issue of coordination in
        included the issue as part of their 1992 strategic       1992. The ACF has also
                                                   plan. for
        Support Enforcement (OCSE) and the Administration Further , the Offce of Chid
                                                             Children€
                                                                           , Youth and
        Families have already begun a joint initiative to improve coordination.
                                                                                Additionally,
        OCSE audits will more closely monitor the distribution of child support collections.
       Finally, OCSE will issue a letter to the States alerting them of the problem of€
       incorrect distribution.€

       OIG Response

       The ACF planned actions should improve communication and coordination between
       foster care and child support agencies and remedy inappropriate distribution of chid
       support dollars collected on behalf of children in IV-
                                                              E Foster
       should enhance parental responsibilty and directly benefit      Care.inThese
                                                                   children    foster actions
                                                                                      care.

       ASMB Comments

      The Assistant Secretary for Management and Budget (ASMB) concurred with the
      recommendations of the report from both a programmatic and fiancial
      The ASMB agreed that pursuit of child support for lV-               viewpoint.
      the promise of both greater parental responsibility and Edirect
                                                                 Foster Care chidren
                                                                      benefits         holds
                                                                               to the chid.€
      The ASMB expressed some concern over different objectives of foster care and child
      support staff at the Federal level.€

      OIG Response

      Regarding ASMB' s concern over the diferent objectives of child support and foster€
      care staff, we believe that as ACF implements its plan for better coordination and€
      monitorig the differences should be minimized.
   ASPE Comments€

  The Assistant Secretary for Planning and Evaluation (ASPE) agreed that more
  coordination between foster care and chid support is needed. However€
  concerns about 1) the conflctig
                                   objectives of child support and        , ASPE raised
                                                                   famysupport
  2) whether our savings projections included the cost of pursuing child reunication
  how well actual collections compared to our projections.                     , and 3)

  OIG Response

  1) Regarding ASPE' s concern about collecting child support for children in IV-
  Foster Care, we agree that chid support should only be pursued in "
  cases. However, we continue to believe that the majority of chidrenappropriate
                                                                           in foster care can
 benefit from IV-D Child Support servces
 absent parents. We hope our report           , such as paternity establishment and locating
 these servces. Many of the issues and problemsthe
                                          increases     awareness of a need to integrate
                                                      cited by ASPE will be solved as
 States gain more experience in collecting child support on behalf of foster care
 children. The " effective practice
                                    " sites which we examined demonstrate that this can
 happen.

 2) The ASPE commented that our projected
                                             savings did not include the cost of
pursuing child support. We agree. We did not    adjust our
account for the Federal share of State administrative cost estimate of savigs to
                                                          because of diffculties in
determnig the marginal cost of increasing collections. However
ASPE' s concerns we reduced the estimated savings by 50 percent, to
                                                                  in incorporate
                                                                      response to
consideration for the administrative cost of increasing
                                                          collections.
3) The ASPE commented that in fiscal year
behalf of children in IV-E Foster Care        1990 OCSE collected $10.3 miion on
                                       , but we projected collections of $8.
Our estimates were based on a random sample of foster care children. The     3 variation
                                                                               mion.
between ours and OCSE estimates are probably the result of sampling error.€
                                                          ENNOTE
    Some States have an alternate system of
    foster care. The cases usually are run through juvenile
                                                             obtaing chid support for chidren in
                                                            courtorder.
   a provision for child support as part of the original removal   and tyically
                                                                         Juvenieinclude
   do not use Federal child support guidelines when                              court
   have collection powers (such as wage withholding)establishing
                                                       available toorders
                                                                    IV­ , nor do they
  Support agencies. Of the few cases                                D Chld
                                      in our sample referred to these systems
  one had any collections. The total amount  of these                         , only
  per year.                                           collections amounted to $180

  We do not believe these two sites are the only "
  they necessarily "best " of all sites in the nation. effective practice " sites , nor are
  study, Federal and State program administrators Durig         selection
                                                        explicitly named of   cases
                                                                           these   twofor this
  counties as " atyical" for their exceptionally high level of collections and
 practices. To learn what "atyical" practices might result in high collections      unique
 repeated the case review process and accompanying structured intervews , we
 two counties. We reviewed "
                                  universe " data for these counties to verify theinvalidity
                                                                                        these
of the sample.

Review of Child Su art Enforcement Title IV-
                                             D and Foster Care Title IV-
Pro!!am Interface
                    ew Yor       Diane Schwart Willam Meltzer
Jones. Administration for Children and Families (Region
                                                                                       and Allen
                                                            June, 1991.   II).


Medicaid 1990 figure Courtesy of Health Care Financing Administration
of Data Management and Strategy, Offce of Program Systems             , Bureau
Medicaid Statistics.                                       , Division of
                             APPENDIX A€
                        TI IV-        FOS CA PROC
Afer a child is removed from a home - usually by the police or by child protection
authorities - the chid is placed in some tye of emergency care. A remov order
signed by a court and a more permanent place for the child is found. Some States
and localities allow parents to volunta place their children in foster care.

The preferred placement is in a " homelie" setting where a child will be cared for by
foster pants. Usually foster parents are certifed volunteers who take chidren into
their homes. The IV-E Foster Care program provides a Federal match (at the same
rate as Medicaid) for States ' expenses for foster care maitenance payments. These
are costs directly related to care and lodging for eligible children.

Local foster care agencies work with former cutodial parent(s) - usually the biological
parent(s) who last had legal custody of a child - to develop a permanency plan. The
permanency plan is a step- by-step action plan to determine what will happen with a
child. In accordance with the Adoption Assistance and Child Welfare Act of 1980 , the
majority of permanency plans are designed to return a child to the former custodial
parente s) as soon as possible.

Occasionally, a foster care worker (or the parent) will determine that a chid can never
return home. This determination is usually reached because the problems causing
removal are so extreme or are insurmountable. For many such cases the permanency€
plan will be adoption.€

For adoption to take place, proper legal proceedings must terminate parenta rights of
both parents. This termination can be voluntary or involuntary. If a parent is absent
and their whereabouts are unknown , a "dilgent sech" must be made to satisfy legal
requirements before a child ca be eligible for adoption.

A child' s case must be reviewed every six months and the permanency plan updated.
The family s progress towards improving the home situation is tracked by an assigned
foster care case worker. In cases of voluntary placements, a child must be returned to
the parent(s) upon his/her request.

Coordination between IV- E Foster Care and IV-D Child Support programs begis
with a referr from afoster care agency. The child support agency attempts to locte
the absent parent(s). An " absent   parent" is a biological parent not residing in the
home the chid is in. Paternty wi be establihed if necessary. The child support
agency will go through the court proceedings to establish a support order.  A support
order is an order issued by a court requiring the absent parent(s) to provide chid
support. The agency will then collec monies from the absent parent(s) and ditribute
them in accordance with the court s ruling and Federal regulations.
                              APPENDIX B
                    INRMTION COIL0N MEODS
We analyzed a listing of Title IV-E Foster Care program population for each State in
1989 to determine which States to include in our sample. We drew a two-stage cluster
sample. First , we selected eight States at random with probabilty proportional to size.
The average number of chidren in the IV-E Foster Care program in 1989 determed
 size."

The selected States represented approximately 64 percent of the total average number
of children in IV- E Foster Care in 1989. The eight States were:

                  Arzona
                  Californa
                  Ilinois
                  Kentucky
                  Michigan
                  Minesota
                  New York
                  Pennsylvania

Second , we selected a sample of 320 IV-E Foster Care children. We randomly
selected 40 children per State from the active lV- E Foster Care population. As
necessary, we oversampled to compensate for cases which were not available at the
time of our on-site visit (i.e. , in court that day). The method of random sampling
varied from State to State because of variations in administration and organition of
lV-E Foster Care and IV-D Child Support programs in the sampled States. For State
administered programs , we drew a random sample of all cases. In States where the
IV-E Foster Care program is administered by counties , we selected two counties and
drew a random sample of all cases within those counties.

Once the cases were selected at lV-E Foster Care agencies, we gathered information
on each case and the referral process via a uniform data gathering instrument. We
gathered names , social security numbers, and other identifers , as available, on both
parents and the IV-E Foster Care child. We then used these identiers at IV- D Child
Support agencies to determine if the:

    Foster care agencies had referred a IV- E  Foster Care case to IV-D Child Support
    agencies and the IV- D   agencies had received it;

    IV-A AFDC agencies had referred a case to lV- D Child Support agencies on the
    parent(s) as an AFDC-eligible case; or€
    IV-E Foster Care agencies had not referred the cae, but IV-D Chd Support
    agencies had been able to open a correctly classifed IV-E cae on the parent(s)
    anywy (Le., the IV-D Chd Support agents independently search cour records).
    In these instances IV- E Foster Care agencies are unaware of IV-D Chd
                                                                           Support
    agencies actions.

When a IV-D Chid Support case corresponding to the IV-E Foster Care case was
found , we checked the IV-D case to see if it was correctly identifed as a IV- E case (as
opposed to a IV-A case) and if any collections were being distributed to the IV-
Foster Care program.

We gathered additional facts and data by intervewing people most directly
knowledgeable about the extent child support is collected on behalf of children in
IV-E Foster Care. We used structured intervew guides. Offcials in the eight- State
sample included: foster care case workers , eligibilty workers and their program
managers; child support staff, supervsors and court offcers; State IV-E Foster Care€
and IV- D Child Support program managers and staff; and in the regions where the€
eight sample States are located , Federal IV- E and IV-D program managers and staff.
                              APPENDIX C€
                 DESCRON OF           "E              PRACTCE"      SIT
Although their programs difer, Lancaster County, Pennsylvania and Olmstead County,
Minnesota have developed successful programs , interrelating IV-E Foster Care and
IV-D Child Support.


Lacater County, Pennlva
The philosophical orientation and program organiztion make Lancaster County,
Pennsylvania an " effective practice " site. First, the belief permeating the system is
parental responsibility, including financial responsibilty.

County managers encourage foster care servce workers to think about chid support€
as part of overall therapy for a family. They gather necessary information on the chid€
and family and refer it to the fiscal offcer for eligibilty determination and possible€
child support. During all processes everyone assumes the parent(s) will shoulder some€
of the financial responsibilty for their child while in foster care. Program managers€
and staff believe that parents who are not asked to contribute will have a fiancial€
incentive   not to strive for the return of their children. Parents must produce evidence€
that they are unable to financially support their child in order to be exempt from chid

support.

In preparig the eligibility porton of a case, the fiscal offcer is also preparing the
chid support case. The fiscal offcer does most of the routine work in preparig a
case for the court to issue a support order. When necessary, two IV-D Chd Support
offcers work with the fiscal offcer to faciltate the process.

Lines of communication are smooth , with the fiscal offcer acting as a liaison between
the IV-E and IV-D programs. The computer system also ties in IV-A AFDC records
IV-D Child Support records and the IV-E Foster Care records , so all information is
instantly exchanged.

The fiscal offcer also monitors changes in family status. During a six-month eligibilty
review, the foster care staff and fiscal offcer reassess every case for child support.
The fiscal offcer also monitors collections on the computer, printing out weekly and
monthly reports. Program and county managers also review the monthly printouts.




                                           C - 1€
                         APPENDIX D
                     PROJE CH SUPORT COlL0NS
The followig projections are based on the premise that our study sample represent
tyical cases. Based on the current collection rate and amount , we estimated up to
$74 million could have been collected in FY 1990 from parents of chidren in IV-
Foster Care if support orders were issued for 50 percent of the cases.

To calculate this estimate , we weighted the 320 sampled cases to reflect the
percentage of total number of children in IV- E Foster Care nationally. With these
weights assigned , we recalculated the percentages of parents ordered to pay support
and percentages of parents actually paying support.



                                        National &tiates
                                            Mothers            Fathers                Total
        Percent With Support
        Orders                                                  11.0%                 11.
        Amount Ordered                         088 000      $22 755 000           $28 844 000
        Percent Payig Child
        Support
        Amount Collected                    $336 000            949 000               285 000
        . Due to the small number of orders and collecons and the wide range of   amounts ordered
        and collected (collections ranged from $5 per month to $20 per month) the precion of thes
        estimates is low.




From the estimate of collections , we project that approximately $255 miion might be
available if every case had a support order and the entire amount of the average
current order was collected.

Acknowledging that collections are not made on every support order, we created a
hypothetical sample where the percentage of children for whom collections are made
on their behalf is increased. These percentages assume the current collection rate of
29 percent remains constant.




                                                 D - 1€
                                Estiate of Potenti Collecons
                                              (in mions)€
        Percent Of Chdren                Estimated Child            Net Federal          Estimated
            For Whom                    Support Collected              Share of           Federal
       Collections Are Made                  (FY 1990)              Collections           Savigs
                                                  $15                     $4.                 $2.
                                                  $30                     $9.                 $4.

                                                  $45                     $13.                $6.
                                                  $60                    $18.                 $9.
                                                  $74                    $22.                $11.
           The Federal share isba    on the ratio of the Federal share to the total of child support
      collections made on behalf of AFC children , as reported by OCSE. The percentage in 199
      use for determining Federal share of collecions wa 30.38 percent
          We are unable to calculate the marginal change in administrative cots that might be
      attributable to additional collecons. Hower , to roughly estimate poible Federal savings, we
      arbitrarily reduce the net Federal share of collecons by 50 percent.

We believe our estimates are conservative for the reasons summaried below.

   The estimate reflects a 29 percent collection rate for current support orders. Ths
   low rate reflects many of the problems detaied in this report                      such as the      lited
    exchange of information between foster care -and child support workers. The
     effective practice" sites achieve an 80 percent rate of collections on current
    support orders. Support orders in effective practices sites are also frequently
    updated , so the average dollar amount per support order is higher than is shown
    in this estimate.

    The ACF Region 11 offce conducted a recent study of referrals of IV-E Foster
    Care children to IV-D Child Support servces in New York City and showed a
    high rate of collections is possible. That study also showed problems in the
    referral processes and a lack of information exchange. Yet , when the IV-D Chid
    Support agency correctly opened IV-E Foster Care cases , they achieved over a 60
    percent collection rate.

    A potential savings to the Medicaid program from parent s medical support
    of their IV-E Foster Care children exists. In 1990 the average cost per Medicaid
    child was $811 per year. Although medical support only covers a porton of the
    total Medicaid expenditures , signficant savings may be possible. In " effective
    practice" sites 42 percent of the children received medical support from a parent.
    We did not include potential savings such as these in our estimates above.




                                                    D - 2

   A IV-D Chd Support agency occsionally locates an absent parent (such as an
   absent father for whom paternty had not been established) who is wig and
   able to provide a home for their child. In our sample, the IV-D Chd Support
   agency had located the alleged father of a IV-E Foster Care child. A paternity
   test proved the man was. the child' s father. The father who had been unaware of
   the child' s existence, was concerned with the conditions that forced the child to be
   placed in foster care. The man then requested the child corne live with him and
   his family. File records showed the man s request was in the process of being
   reviewed and the child was expected to soon leave foster care. This is an example
   of the benefits a child may experience if they receive appropriate , coordinated
    servces. It also represents a source of   savings to the IV- E   program which we did
    not include in our estimates. €
    The amount collected will increase as the number of children in IV-E Foster Care
    rises. We estimate the increase in children to be 12 percent per year, based on€
    the average rate of increase between 1986 and 1990. Potential collections will also
    increase as dollar amounts of child support collected increase due to inflation and
    improved methods of collections (such as wage withholding and tax intercepts).
    The rate of increase established for AFDC and Foster Care cases in 1986-1990
    was 4. 75 percent. Provided that these rates continue over the next five years€
    Federal and State governments could cumulatively collect over $1 bilion      in child


    support on behalf of IV-E   Foster Care children by 1996. We did not include such
    calculations in our estimates.

Additionally a one time increase in collections would be realized if all cases
 misclassified" for distribution purposes were corrected. In our review , 19 percent of
the total dollars collected on behalf of children in IV-E Foster Care was mistakenly
distributed to the IV-A AFDC program. If this percentage is representative of the
national rate of mistaken distribution , $2. 5 milion should go to the IV-E Foster Care
program.




                                           D - 3

 APPENDIX E
COMM ON DRA REORT




       E-1
                                                          .: .'
                                                              - . ." .-   ~~~   ,. .€
                                                                                   ..."   - :.   ::\


       DEPARTMENT OF HEALTH &. HUMAN SERVICES


                                                        ADMINISTATION FOR CHILDREN AND FAMILIE
                                                        Office of the Assistant Secretary, Suite 600
                                                        370 L' Enfant Promenade, S.
                                                        Washington, D. C. 20447
                       March 27, 1992€


To:                   Richard P. Kusserow
                      . Inspector General
From:                 Jo Ane B. Barart           f"


                      Assistant Secretary

                           Children and Fami     \es.
Subj ect:             Comments on the Offic Of Inspector General' s Draft
                      Report: "Child  Support for Foster Care Children,
                      OEI-04-91-Q0530

Attached are the Administration for Children and Families
comments on your draft inspection report entitled: "Child
support for Foster Care Children.

We agree that there    a need to improve coordination be Neen the
                                            is

child support and foster care programs. We have provided
specific comments on each of the recommendations discussed on€
page 12 of the report. We have also provided additional comments€
on our plans to implement the recommendations.€

Thank you for the opportunity to respond to the recommendations€
in this draft report.€


Attachment




                                                             :l      :J 0'- ". iI --
                                                                                                 :!r


                                                                            \=83
 COMtS                             RE AN FAMLI ON TH     CHTTn
                  GE'
 OFFICE OF INSPECTOR
                        OF TH ADMIISTRTION FOR

                        S DRA INSPECTON RERT--CHLD
 SUPORT FOR FOSTE CA CHLDRE rOEI-04-91-0530\

 Following are the Administration for Children and Families I
 comments on the recomendations discussed on page 12 of the
 above-captioned report.
OIG Recommendation




As a condition of receiving Federal matching           Foster€      fuds for
Care administration under Title IV-E, the Administration for
Children and Families (ACF) should require states to develop and
implement:€
             criteria and procedures to                assue that
                                                    Foster Care agencies
             refer all appropriate IV-E Foster               cae
                                                    cases to IV-D Child
             Support Enforcement agencies for establishing child support
             orders and collecting child support and
             a Memorandum of Understanding between IV-E Foster Care
             agencies and IV-D Child Support Enforcement agencies with
             respect to determining " appropriate" cases for referral
             gathering and exchanging data between the units, cross
             training, and inter- unit consultation on cases.

ACF Comment:€
We believe that the substance of this recommendation                      is   already
in place. The Administration for Children, Youth and Families
(ACYF) sent policy issuances to all State agencies which
administer or supervise the administrtion of titles IV-B and IV-
E of the Social Secuity Act.   These policy issuances are
described below:

            Program Instruction, ACYF-PI-85-l, dated January 1, 1985,
            which requires States to amend their title IV-E State plans
            to include an amendment for the collection of child support
            payments made on or after October 1, 1984, as required by
            section 471 (a) (17) of the social Security Act.

            Information Memorandum, ACYF-IM-84-27, dated December 12,
            1984 , which transmitted to State child welfare agencies the
            Office of Child Support Enforcement' s (OCSE) Notice of
            Proposed Rulemaking regarding the child support enforcement
            amendments of 1984. The Information Memorandum exlained
            the responsibilities of both the title IV-D Child Support
            Enforcement agency and the title IV-E Foster care agency for
            implementation' of the requirements. The issuance states
            that it is the responsibility of the title IV-E agency to
            refer all cases with assignents to the title IV-D agency
            and to ensure that funds collected are appropriately
            managed.€
Page 2


           The Informtion Memorandum recommended that each state
           title IV-E agency arange a meeting with the state
           title IV-D agency to clarify the procedures for assignent
           of title IV-E cases and deterine whether and under what
           conditions the agency would pursue support payments for

           cases not receiving Federal funding. This recommendation

           was based upon the fact that there is variation in state

           laws and regulations governing the operation of title IV-D

           agencies.
           The Information Memorandum also states that each quarer,

           states must report to ACYF the title IV-E foster care

           collections made as an adjustment to exenditures, and that
           it is the responsibility of the state title IV-E agency to
           initiate the action that will result in the assignent of
           rights to support for a child receiving title IV-E foster
           care maintenance payments. This does not apply to adoption
           assistance payments made under title IV-E.


copies of these policy issuances, ACYF-PI-85-1 and ACYF-IM-84-

27, are attached.


In addition, we are undertaking the following activities:

            Each regional office will be asked to examine the system
            for the coordination of title IV-D and title IV-E
            requirements in each State, and report to the ACY
            Commissioner on the status of each state, highlighting
            problem and providing recommendations for regional and/or
            Central Office action; and


            We will include this issue as an explicit effort to be

            undertaken as a part of title IV-B joint planning in the

            Joint Planing Guidance to be issued to regions in fiscal

            year 1992.


OIG Recommendation 





In support of such state initiatives, ACF should provide
 guidance
and plans for coordinating the IV-E Foster Care and IV-D
 Child
Support Enforcement program. ACF could:

            Develop training and technical assistance modules to assist

            states in implementing new policies and procedures on child

            support for children in IV-E Foster Care.


            Pulish a compendium   periodically of the techniques used by
             successful States in increasing their collections.

             Pulish periodic reports showing statistics nationally and
            by state on the IV-E Foster Care and IV-D Child support
             initiative.
   Page 3

                                                                their€
                         performce stada
         Direct regional offices of ACF to monitor States in
         region using                       and monitoring
         mechanism .
  ACF Comment:
 Our FY 1992 strategic plan addresses the need to improve
 coordination between the child support and foster cae program.
 Top level staff from OCSE and ACY have already met to begin a
 joint initiative between the two agencies, designed to encourge
 mutual     progr
                coordination and outreach at the Federl level.
 Tentative plans include briefing centrl and regional office
 staffs of both        progr
                         to improve knowledge of each others
 mission and fuctions
 aricles in
                           , as well as pulicizing their   linge
                                                             with
                 Child Support Report newsletter, which is sent to
                 the

 a national audience of individuas         inolved or interested in
 child support.

 As part of the review of      titleIV-E State
                                           plans, ACY is
 examining State policies and procedures for collecting and
 reporting the collection of child support fuds.
 OIG   Recommendation '3
 The ACF should ensure that the Federal share of child support
 dollars collected on behalf of IV-E Foster care children is
 correctly distributed to the IV-E Foster Care
 the IV-A AFC program.
                                                     progr
                                                       rather than

ACF Comment:
  The OCSE audit process looks at control over collections and
  distribution; however , due to the small numer of foster care
  cases , the OCSE auditors have not uncovered situations     simlar to
  the ones described in the OIG     drft
                                       report. We are confident
  that , as the numer of referrals , and this foster care cases in
  the system increases , the OCSE audit will more closely monitor
 this programatic area. OCSE will, in the near future , issue a
. "Dear Colleague " letter to State child support agency directors
 urging them to take appropriate steps to remedy the problem
 uncovered by the OIG , if such action is appropriate in their
State.
-.
"--,,


..,nI,
                      !::                     ..                          ..
               . D EPA R1IiIMIJULTH IL HUMAN SERVICES                                         0t   at th   .b. y

 J(L.
                      CiFF!CE OF i ISf'ECrC:=
                            ef.: :€
                                                                                              W8Iin. D. C. 201
                              ;::3 I G :           ; 9: 59                       I6€


                                     Richard P. Kusserow

                                     Inspector General 





         From 	                  Arnold R. Tompkins
                                                                                        14.
                                 Assistant Secretary for anagement
         Subject:	               OIG Draft Report: "Child Support
                                     Children,             OEI-04-91-00530

         We have reviewed the subject draft report, and wish to concur

         with comments. The recommendations in the report are well

         advised on both programatic and financial grounds. Pursuit of
         child support for IV-E children holds the promise both of greater

         parental responsibility for children (and potentially, investment

         in, and conmitment to these children), and of direct benefits to

         the children (e.g., paternity establishment, location of absent

         parents, continued collections after a child leaves foster care) 


         We offer the following comments on this report. The report

         indicates that one reason collections are low is the divergent

         orientation of the Foster Care and Child Support agencies at the

         State and local level. Specifically, notes the report in regard

         to State staff:
                     Foster care staff are oriented to and talk in terms of an

                     individual child. They form interpersonal relationships

                     with the families they serve. On the other band, most IV-D

                     Child Support staff view themselves as adversaries of

                      absent parents.   The child support staff tend to be

                     "bottom line oriented.


         We question whether, at the Federal level, there aren 't similar
         problems which need to be addressed, and whether there are
         actions which ACF can take to reduce tensions between the goals
         of  he IV-D program (collecting funds to offset income
         maintenance costs) and the IV-E program (using the benefits of
         the child support process, including paternity and support order
         establishment and parental involvement).

         In Appendix D, page 3, the report states that "Federal and State
         governents could collect                      child support on
                                                               over $1 billion         in


         behalf of IV-E Foster Care children by 1996. " The report needs
         to clarify that this is a
                                    cumulative amount over five years.
         currently stated, the report gives the impression that by 1996,
         $1 billion could be' collected annually. Finally, on page 7 of
         ti.	  port, in the first paragraph under the be ding "Mi sion . and
         rc:es are not clearly understood or accepted, " 1n the th1rd 11ne,
         the wc=d compliment should be changed to " complgment.
                                                . --"-
                                                   . .-




      . DEPARTMENT Of HEALTH &. HUMAN SERVICES
                                                                         Ofce of tho Secota

                                                                         W..hinglon. D. C. 20201


                                                      '00:
                                                      h....-



TO:          Richard Kusserow

             Inspector General

FROM:        Assistant Secretary for

             Planning and Evaluation

SUCT :       OIG Draft Report: "Child Support for Foster care
             Children   " OEI-04-91-00530
Thank you for the informtive draft report on the use of Child

Support services for children in foster care.
                                               I agree that much

more could be done to coordinate the provision of Child Support

Enforcement services for children entering the title IV-E Foster

Care system. Better communication and coordination between staff

in IV-D and IV-E agencies is certainly needed and should be

encouraged.
However, I believe your draft does not address several important
issues, and therefore oversimplifies the exent to which Child
Support collections for foster care children can or should be

pursued. I strongly suggest that the report include a discussion

of the following issues along with a suggestion that they be
resolved before additional requirements are placed on state

agencies.
             The report does not adequately address the real and

            perceived conflicts between the activities and goals of

            the IV-D program (maximizing collections) and those of
            the IV-E program (maximizing family reunification).
            Before ACF can provide guidance and states can develop

            criteria, there needs to be some resolution of these

            policy conflicts. Included in the list of issues which

            could lead to conflicts are: pursuing child support

            from a two- parent family; pursuing child support from a

            custodial parent when a child was involuntarily removed

            from the parent(s); pursuit of child support from a

            parent receiving AFDC; pursuit of child support when

            contact with and by the non- custodial parent could be
            disruptive to the permanency planing or reunification
            process involving the child and his or her (former)
            custodial parent. Finally, in our jUdgment, the report
            does not distinguish between financial support as a

            strategy for family involvement and reunification, and

            child support as pursued under state Child Support

            Enforcement guidelines and enforcement procedures.

                                  8il ;111;';   0 I            ';;I Z





                                        :'::is;         Q =:n:f=
                                        G::/1i3:J31:
Page 2 - Richard   XUserow€


          cited in the report is overly optimistic.collections€
          The amount of savings potential fro IV-E
                                                    It does not

          seem to take into account the cost of providing Child

          Support Enforcement services. The 1990 Child Support

          Anual Report to Congress reports that states spent

          $947 million to collect $1. 754 billion in child support

          collections on behalf of AF    recipients. This results

          in an average cost-effectiveness ratio of 1. 85. This

          low cost-effectiveness ratio would reduce the savings

          potential by about 45 percent.


          Informtion on the actual level of child support€
          collections made on behalf of IV-E children was not
          included in the report. In Fiscal Year 1990, IV-D
          agencies collected $10. 3 million onbealf of  IV-E
          children. This is 30 percent more than the amount

          estimated in Appendix D, based on sample information.

If you have any questions, please call Jane Baird at 245-2409.




                      L- /€
                         Martin       .L:l€
